U.S. CONSUMER PRODUCT SAFETY COMMISSION




OFFICE OF THE INSPECTOR GENERAL



 SEMIANNUAL REPORT TO CONGRESS



 April 1, 2012 – September 30, 2012
                               EXECUTIVE SUMMARY

    This semiannual report summarizes the major activities
performed by the Office of the Inspector General (OIG),
during the reporting period April 1, 2012 through September
30, 2012. During the reporting period, this office worked
on eight audits or reviews.   At the end of the reporting
period, four audits or reviews and three investigations
were in progress.

    The OIG received a number of complaints during the
reporting period, six of which resulted in the initiation
of formal investigations. Five investigations were closed
or transferred during the reporting period.    Management
officials acted on the recommendations made in the
completed investigations from the previous reporting
period.

     The OIG continues to be involved with the Council of
the Inspectors General on Integrity and Efficiency and the
Council of Counsels to the Inspectors General.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   1
                                    INTRODUCTION

U. S. CONSUMER PRODUCT SAFETY COMMISSION

     The U.S. Consumer Product Safety Commission (CPSC) is an
independent federal regulatory agency created in 1972, under the
provisions of the Consumer Product Safety Act (CPSA) (P.L. 92-573)
to protect the public against unreasonable risks of injuries
associated with consumer products. Under the CPSA and the Consumer
Product Safety Improvement Act of 2008 (CPSIA), Congress granted
the CPSC broad authority to issue and enforce standards prescribing
performance requirements, warnings, or instructions regarding the
use of consumer products. The CPSC also regulates products covered
by a variety of other acts, such as the Virginia Graeme Baker Pool
and Spa Safety Act, the Children’s Gasoline Burn Prevention Act,
the Flammable Fabrics Act, the Federal Hazardous Substances Act,
the Poison Prevention Packaging Act, and the Refrigerator Safety
Act.

     The CPSC is headed by five Commissioners appointed by the
President with the advice and consent of the Senate. The Chairman
of the CPSC is designated by the President.             The CPSC’s
headquarters is located in Bethesda, MD.     The agency has field
personnel stationed throughout the country. The CPSC had a budget
of $114.5 million and 548 authorized full-time equivalent positions
for FY 2012.

OFFICE OF THE INSPECTOR GENERAL
     The OIG is an independent office, established under the
provisions of the Inspector General Act of 1978, as amended by the
Inspector General Act Amendments of 1988, and the Inspector General
Reform Act of 2008. The Inspector General Act gives the Inspector
General the authority and responsibility to:

       •   conduct and supervise audits and investigations of
           CPSC programs and operations;




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   2
       •   provide leadership, coordination, and recommend
           policies for activities designed to: (i) promote
           economy, efficiency, and effectiveness in the
           administration of the CPSC’s programs and operations;
           and (ii) prevent and detect fraud, waste, and abuse of
           CPSC programs and operations; and

       •   keep the Chairman and Congress fully and currently
           informed about problems and deficiencies relating to
           the administration of CPSC programs and operations and
           the need for progress or corrective action.

     The OIG investigates complaints and information received
concerning possible violations of laws, rules, and regulations,
mismanagement, abuse of authority, and waste of funds.     These
investigations are in response to allegations, complaints, and
information received from CPSC employees, other government
agencies, contractors, and other concerned individuals.      The
objective of this program is to ensure the integrity of the CPSC
and   ensure  individuals   fair,  impartial,   and  independent
investigations.

     The OIG also reviews existing and proposed legislation and
regulations relating to the programs and operations of the CPSC
concerning their impact on the economy and efficiency in the
administration of such programs and operations.

     The OIG was authorized seven full-time equivalent positions
for FY 2012: the Inspector General, a Deputy Inspector General for
Audits, an office manager, an Information Technology auditor, and
three line auditors.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress       3
                                   AUDIT PROGRAM
     During this period, the OIG worked on eight (8) audits and
reviews. A summary of each follows:


AUDIT OF FINANICAL STATEMENTS (ongoing)

     The Accountability of Tax Dollars Act of 2002 requires that
the CPSC and other smaller agencies, which had not been required to
perform annual financial audits in the past, begin performing
annual audits of their financial statements. This audit is being
performed to meet this statutory requirement.

     The objectives of this audit are to ensure that the CPSC is
meeting its responsibilities for: (1) preparing the financial
statements in conformity with generally accepted accounting
principles; (2) establishing, maintaining, and assessing internal
control to provide reasonable assurance that the broad control
objectives of the Federal Managers’ Financial Integrity Act are
met; (3) ensuring that the CPSC’s financial management systems
substantially comply with statutory requirements; and (4) complying
with other generally applicable laws and regulations.

       This audit is scheduled for completion in November 2012.


FEDERAL INFORMATION SECURITY                     MANAGEMENT     ACT   REPORTING
REQUIREMENTS (ongoing)

     The Federal Information Security Management Act of 2002
(FISMA) requires each federal agency to develop, document, and
implement an agency-wide program to provide information security
for the information and information systems that support the
operations and assets of the agency, including those provided or
managed by another agency, contractor, or other source.

     FISMA requires agency program officials, chief information
officers, and inspectors general to conduct annual reviews of the
agency’s information security program and report the results to the
Office of Management and Budget (OMB). OMB uses this data to assist

________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress                     4
in its oversight responsibilities and to prepare this annual report
to Congress on agency compliance with the Act.

     FISMA assigns specific responsibilities to federal agencies,
the National Institute of Standards and Technology (NIST), and OMB
to strengthen information system security.

     This review will measure agency compliance with FISMA
requirements and is scheduled for completion in November 2012.


PURCHASE CARD AUDIT

     This audit assessed the CPSC’s Purchase Card Program and
attempted to determine the extent to which the agency has taken
corrective action regarding the findings made in an earlier
audit of its purchase card program by Withum, Smith+Brown
(WS+B).

     The CPSC uses GSA’s (General Services Administration)
purchase card program, which is intended to streamline federal
agency acquisition processes by providing a low-cost, efficient
vehicle for obtaining goods and services directly from vendors.
The CPSC, which is subject to the general guidance found in the
Federal Acquisition Regulations (FAR), has also set forth
agency-specific purchase card policies and procedures. The CPSC
has approximately 148 employees who have been issued purchase
cards and who make approximately 7,700 purchases each year.
This audit reviewed a sample of these transactions, as well as
assessed the effectiveness of the existing policies and
procedures, in addition to the agency’s actual compliance with
same.

     Overall, we found that the CPSC has a functioning Purchase
Card Program in place; however, despite direction from the
Chairman of the agency, management officials have not taken
timely corrective action to address the deficiencies found in
the 2010 audit of the agency’s Purchase Card Program. OIG found
that the program still had a number of internal control
weaknesses and did not comply with a number of the policies and
procedures governing the purchase card program. Our findings
and the related recommendations regarding these issues included:
a lack of adherence to, and enforcement of, existing CPSC-
________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress    5
specific Purchase Card Program policies and procedures;
noncompliance with government-wide purchase card policies and
procedures; and a lack of properly designed, implemented, and
effective internal controls governing the CPSC’s Purchase Card
Program. Management has agreed to implement OIG
recommendations, which included revising the CPSC directive
governing the Purchase Card Program, continuous monitoring of
purchase card transactions, and conducting a formal annual
review over the program.   A number of these recommendations
have already been implemented.



AUDIT OF TRAVEL CHARGE CARD PROGRAM (In progress)

     This audit will assess the CPSC’s compliance with federal
statutes and regulations governing the operation of its Travel
Card Program. The Travel and Transportation Reform Act of 1998
requires federal employees to use travel charge cards for all
payments of expenses related to official government travel,
including hotels, transportation, and meal costs.

     The General Services Administration (GSA) issues the
Federal Travel Regulation (FTR) that implements the requirements
of the Act and administers government travel cards through its
SmartPay program. Each agency selects one of the five banks
contracted by GSA as their travel card provider and negotiates
their own task order under the SmartPay master contract. The
task order identifies the specific charge card services the
selected bank will provide the agency, and it documents the
agreed-upon fees, including additional negotiated rebate
percentages.

     While responsibility for payment rests with the individual,
agencies also have a responsibility, as well as a financial
incentive, to ensure that accounts are paid timely and in full.
GSA’s master contract describes the agencies’ travel card
program responsibilities. These include ensuring that
cardholders use the card only for authorized purposes, by
monitoring account activity; and managing delinquencies and
misuse by notifying the employee and management of delinquent
accounts, taking appropriate disciplinary action, and, as a last

________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress    6
resort, collecting the overdue amount from the employee through
salary offsets. Additionally, the negotiated rebate provides a
financial incentive for the agency to act to ensure that its
employees’ overdue balances are paid in full. Because unpaid
account balances reduce the amount of the rebate the agency
receives, it is important that the agency minimize delinquent
accounts. Monitoring and managing delinquencies also helps the
agency avoid potential negative publicity that can come from
unpaid accounts.


FOLLOW-UP REVIEW OF THE ADEQUACY OF PROCEDURES FOR ACCREDITING
CONFORMITY ASSESSMENT BODIES AND OVERSEEING THIRD PARTY TESTING

     The Consumer Product Safety Improvement Act of 2008 (CPSIA)
constituted a comprehensive overhaul of consumer product safety
rules, and it significantly impacted nearly all children’s
products entering the U.S. market.

     In relevant part, the CPSIA imposed a third party testing
requirement on all consumer products primarily intended for
children 12 years of age or younger. Every manufacturer
(including an importer) or private labeler of a children’s
product must have its product tested by an accredited
independent testing laboratory and, based on the testing, must
issue a certificate that the product meets all applicable
Consumer Product Safety Commission requirements. The CPSC was
given the authority to either directly accredit third party
conformity assessment bodies (“third party laboratories”) to do
the required testing of children’s products or to designate
independent accrediting organizations to accredit the testing
laboratories. The CPSC is required to maintain an up-to-date
list of accredited labs on its website. The CPSC has authority
to suspend or terminate a laboratory’s accreditation in
appropriate circumstances and is required to assess periodically
whether laboratories should continue to be accredited. The
third party testing and certification requirements for
children’s products are phased in on a rolling schedule. The
statute requires the CPSC to issue laboratory accreditation
regimes for a variety of different categories of children’s
products.


________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   7
     The CPSC determined quickly that it lacked the necessary
infrastructure to accredit the testing laboratories directly.
Accordingly, to leverage its available resources, the CPSC
decided to use an independent accrediting organization to
accredit the testing laboratories. CPSC recognition requires a
laboratory to be accredited by an accreditation body that is a
signatory to the International Laboratory Accreditation
Cooperation Mutual Recognition Arrangement. The scope of
accreditation must include the test methods required by CPSC
laws and regulations; and the laboratory must apply to the CPSC
for recognition and also must agree to fulfill the requirements
of the CPSC program.

     This follow-up review of the adequacy of CPSC procedures
for accrediting conformity assessment bodies assessed the CPSC’s
implementation of the recommendations made in last year’s
review. These recommendations were designed to deal with the
review’s findings that the formal standard operating procedures
were often lacking, certain aspects of the review process
appeared to be subjective, and internal control design was weak
in some aspects of the program’s management. This follow-up
review found that, corrective actions had been taken on all
seven recommendations in the original review report. Five of
the recommendations had been fully implemented prior to the
commencement of this review and should be considered closed.
Two of the recommendations are “ongoing recommendations” and not
subject to closure. The follow-up review found that with the
exception of the two “ongoing” recommendations, management took
steps to close out all the remaining recommendations and bring
the CPSC into compliance with federal and agency regulations.


INFORMATION TECHNOLOGY INVESTMENT MANAGEMENT AUDIT (ongoing)

     The CPSIA calls for upgrades of the CPSC’s information
technology architecture and systems and the development of a
database of publicly available information on incidents
involving injury or death. The CPSIA also calls for the OIG to
review the agency’s efforts in these areas.

     In order to assess objectively the current status of the
CPSC’s efforts in this area, and to help provide the agency with
a road map to meet the goals set out in the CPSIA, this office
________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   8
used the Government Accountability Office’s (GAO’s) Information
Technology Investment Maturity (ITIM) model. The ITIM framework
is a maturity model composed of five progressive stages of
maturity that an agency can achieve in its IT investment
management capabilities. The maturity stages are cumulative;
that is, in order to attain a higher stage of maturity, the
agency must have institutionalized all of the requirements for
one stage, in addition to the requirements for all of the lower
stages.

     The framework can be used to assess the maturity of an
agency’s investment management processes as a tool for
organizational improvement.

     The GAO’s ITIM maturity model framework offers
organizations a road map for improving their IT investment
management processes in a systematic and organized manner.
These processes are intended to: improve the likelihood that
investments will be completed on time, within budget, and with
the expected functionality; promote better understanding and
management of related risks; ensure that investments are
selected based upon their merits by a well-informed decision-
making body; implement ideas and innovations to improve process
management; and increase the business value and mission
performance of investments.

     Under a contract monitored by the OIG, the independent
certified public accounting firm Withum, Smith + Brown (WS+B),
performed an audit of the CPSC’s Information Technology (IT)
investment management processes, using the GAO’s ITIM framework.

     According to WS+B’s findings, at the time of their audit,
the CPSC had reached Stage 1 of the five-stage IT investment
maturity model. The CPSC had already implemented several of the
key practices and critical processes that constitute Stage 2,
and WS+B provided recommendations on improving the CPSC’s IT
investment processes.

     Another contract has been awarded to WS+B to review the
CPSC’s Information Technology Architectures with a special
emphasis on the public database. Once again, the review is
being conducted using the GAO’s ITIM framework (A Framework for
Assessing and Improving Process Maturity, GAO-04-394G).
________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   9
     The audit will build upon the results of the prior
assessment of the CPSC’s IT investment management maturity and
will evaluate what improvements have been made and where
additional progress is needed.


REVIEW OF THE SECURITY                 OF   THE    CONSUMER     PRODUCT   SAFETY   RISK
MANAGEMENT SYSTEM

     The CPSIA requires the CPSC                         to implement a      publicly
accessible, searchable database of                       consumer product    incident
reports.

     This database, the Consumer Product Safety Risk Management
System (CPSRMS), houses personal, proprietary, and confidential
data and is a “major application,” as defined by NIST SP 800-18.
Therefore, CPSRMS is required to implement specific security
controls and complete a Security Certification and Accreditation
(C&A) process. NIST SP 800-37 provides guidance and best practices
for the C & A process that federal agencies are required to
implement as a mandate of FISMA. Consequently, CPSC management
reviewed and validated CPSRMS’s system security through the
performance of a C & A assessment, and it formally authorized
CPSRMS to operate on January 16, 2011.

     This review was designed to evaluate the CPSC’s C & A
assessment (specifically, the six-step Risk Management Framework
outlined in NIST SP 800-37) to ensure that it met those
requirements and Section 212 of the CPSIA.

     The review found that at the time fieldwork was performed,
there were several inconsistencies and weaknesses in the C & A
assessment of the CPSRMS. These weaknesses stemmed primarily from
a lack of mature organizational processes and procedural documents
required to ensure the adequate governance of the C & A process.
In addition, management’s lack of internal resources played a
significant part in the weaknesses identified in the C & A
assessment. Management concurred with and already implemented many
of OIG’s recommendations.



________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress                       10
REVIEW OF CONSUMER PRODUCT SAFETY                         RISK   MANAGEMENT   SYSTEM’S
COMPLIANCE WITH CPSIA SECTION 212

     The CPSIA requires the CPSC                         to implement a       publicly
accessible, searchable database of                       consumer product     incident
reports.

     Several content, organizational, and procedural requirements
are defined in Section 212 of the CPSIA regarding the
implementation and operation of the database. For example, the
database is required to contain all Reports of Harm submitted on or
after March 11, 2011, relating to the use of consumer products and
other products or substances regulated by the Commission; the
information must be categorized in a manner consistent with the
public interest; businesses must be allowed the opportunity to
comment on the Reports of Harm and the comments must be published
in the database at the same time as the Report of Harm, whenever
practicable; in addition, access to the any Personally Identifiable
Information (PII) provided by the Report of Harm submitter must be
limited.

     The purpose of this review was to meet the requirements of
section 205 of the CPSIA by reviewing the CPSRMS to ensure that it
complies with the requirements set forth in section 212 of the
CPSIA. Overall, we found that the CPSC has substantially complied
with the requirements of the CPSIA for the database. However, we
did note one instance in which personal information regarding a
consumer (name, contact, and medical information), had been made
available to the public. The type of information in question is
characterized by the government as Personally Identifiable
Information (PII), and its actual or potential unauthorized release
is referred to as a breach of PII.

     This particular breach of PII occurred because the CPSC did
not properly conceal or redact the PII contained in a publically
available Report of Harm.       The breach in question was not
discovered until a public user of the database notified the CPSC
that a Report of Harm on the database contained an attachment that
included the Report submitter’s name and phone number.         The
attachment also included a Web link to the report submitter’s
website, which included additional PII. The individual responsible
for “scrubbing” the files to remove PII data before they were
posted did not follow proper procedures. Instead, the individual
________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress                      11
attempted to redact the PII contained in the report by using
Microsoft Word (the program that had also been used to generate the
attachment) to add objects (black rectangles) to cover the PII
information in the attachment. However, the objects were alterable
by public users of the database, rendering the redaction
meaningless and the information underneath viewable. Management
concurred with and had already implemented OIG recommendations
designed to prevent future PII breaches before completion of the
audit.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   12
                       INVESTIGATIVE PROGRAM
      A number of individuals contacted the OIG during the
reporting period to discuss their concerns about matters involving
CPSC programs and activities. Six of the individuals filed formal
complaints, alleging waste, fraud, abuse, or mismanagement of CPSC
resources.   These complaints resulted in the initiation of six
investigations. Several matters were transferred to CPSC officials
(management or EEOC) or to other government agencies for final
disposition after initial investigation indicated that these cases
would be dealt with more appropriately outside of IG channels.
Several investigations were closed after initial investigation
determined that no action was required. One case was transferred
to the U.S. Secret Service.

                                  Investigations
                                                                No. of Cases
                Beginning of period                                  2
                Opened                                               6
                Closed                                               3
                Transferred/Incorporated                             2
                  into existing investigation
                End of the period                                   3

REPORTABLE INVESTIGATIONS
     Alleged Threat Against the Life of the President by a Non-
Government Employee – A non-government employee contacted an
employee of the CPSC and made threatening statements regarding
the President of the United States. All available evidence was
gathered, and the matter was transferred to the U.S. Secret
Service.

     Alleged Misconduct by a Government Employee – An anonymous
complainant alleged that the Subject inappropriately detailed an
unqualified employee into a supervisory position. Allegation was
found not to be substantiated.

     Alleged Misconduct by a Government Employee – An anonymous
complaint alleged that a CPSC Official acted inappropriately when
he played a role in the selection of a contractor for whom a
________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress                  13
relative of his worked.     It was determined that although the
individual in question shared the same last name as the CPSC
Official, there was no other relationship between the official and
the contractor. Allegation was found not to be substantiated.

ONGOING INVESTIGATIONS

     Three investigations were ongoing at the end of the
period.   These cases involve allegations of violations of
various agency or federal regulations and/or statutes.

                                OTHER ACTIVITIES

LEGISLATION AND REGULATIONS

     The OIG reviews internal and external legislation and
regulations that affect the OIG specifically, or the CPSC’s
programs and activities, generally. Procedures applicable to the
following subjects were reviewed and commented upon during the
reporting period:

       Consumer Product Safety Improvement Act
       Consumer Product Safety Act
       Use of Social Media by the CPSC
       Unauthorized Release of Personally Identifiable Information
       Training of Managers and Supervisors
       Agency Privacy Program
       Hatch Act
       Conflict of Interest
       Federal Information Security Management Act
       Purchase Card Program
       Travel Card Program
       Changes in Agency Financial Management Policies
       Anti-Deficiency Act
       Federal Service Labor-Management Relations Statute
       Merit System Principles
       Prohibited Personnel Practices
       Improper Payment Reduction Act




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   14
COUNCIL OF INSPECTORS GENERAL ON INTEGRITY AND
EFFICIENCY

     The Inspector General, as a member of the Council of
Inspectors General on Integrity and Efficiency (Council),
maintains active membership with the Council and its associated
activities. The Council identifies, reviews, and discusses
issues that are of interest to the entire IG community. The
Inspector General attended regular meetings held by the Council
and joint meetings of the Council and GAO. The OIG’s staff
attended seminars and training sessions sponsored or approved by
the Council and its associated activities.

COUNCIL OF COUNSELS TO THE INSPECTORS GENERAL

     The Inspector General is a member of the Council of Counsels
to the Inspectors General. The Council considers legal issues of
interest to the Offices of Inspectors General. During the review
period, the Council reviewed existing and pending laws affecting
the CPSC, in general, and to the Office of the Inspector General,
specifically; and it provided other support to the Inspector
General, as needed.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   15
                                                                              Appendix A



                  REPORTING REQUIREMENTS SUMMARY
Reporting requirements specified by the Inspector General Act of 1978, as amended, are listed
below:

      Citation                    Reporting Requirements                               Page

Section 4(a)(2)       Review of Legislation and Regulations……………………………………………14

Section 5(a)(1)       Significant Problems, Abuses, Deficiencies……………………………4-13

Section 5(a)(2)       Recommendations with Respect to Significant Problems,
                      Abuses, and Deficiencies……………………………………………………………………………4-13

Section 5(a)(3)       Significant Recommendations Included in Previous Reports
                      On Which Corrective Action Has Not Been Taken………………………NA

Section 5(a)(4)       Matters Referred to Prosecutive Authorities……………………………NA

Section 5(a)(5)       Summary of Instances Where Information Was Refused…………NA

Section 5(a)(6)       Reports Issued…………………………………………………………………………………………………………4-13

Section 5(a)(7)       Summary of Significant Reports………………………………………………………………4-13

Section 5(a)(8)       Questioned Costs……………………………………………………………………………………………………NA

Section 5(a)(9)       Recommendations That Funds Be Put to Better Use…………………NA

Section 5(a)(10)      Summary of Audit Report Issued Before the Start of
                      the Reporting Period for Which No Management
                      Decision Has Been Made……………………………………………………………………………………NA

Section 5(a)(11)      Significant Revised Management Decisions……………………………………NA

Section 5(a)(12)      Management Decisions with Which the Inspector General
                      Is in Disagreement………………………………………………………………………………………………NA

Section 845 of        Significant Contract Audit Reports……………………………………………………NA
The NDAA of 2008




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress                                   16
                                                                Appendix B



                             PEER REVIEW RESULTS
The last peer review conducted by another Office of Inspector General on the
CPSC’s OIG was issued on May 23, 2011, and it is available on the CPSC OIG’s
Web page. All recommendations made in that peer review have been
implemented.

The last peer review conducted by the CPSC’s OIG of another Office of
Inspector General occurred on December 9, 2010, and it involved the National
Endowment for the Humanities’ Office of Inspector General (NEH OIG). No
deficiencies were noted, and no formal recommendations were made in that
review.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress                17
